                  U.S. DEPARTMENT OF ENERGY

                 OFFICE OF INSPECTOR GENERAL

                  OFFICE OF AUDIT SERVICES



                          AUDIT OF
               THE U.S. DEPARTMENT OF ENERGY'S
        CONSOLIDATED STATEMENT OF FINANCIAL POSITION

                 (As of September 30, 1995)




                 REPORT NUMBER: IG-FS-96-01
                      FEBRUARY 29, 1996




The Office of Inspector General wants to make the distribution of
   its reports as customer friendly and cost effective as
    possible. Therefore, this report will abe available
electronically through the Internet five to seven days after
     publication at the following alternative addresses:

             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

      Department of Energy Human Resources and Administration
                             Home Page
                http://www.hr.doe.gov/refshelf.htm1

Your comments would be appreciated and can be provided on the
       Customer Response Form attached to the report.

               This report can be obtained from the
                     U.S. Department of Energy
          Office of Scientific and Technical Information
                            P.O. Box 62
                    Oak Ridge, Tennessee 37831

United States Government
Department of Energy
memorandum

DATE:      February 29, 1996

REPLY TO
 ATTN OF: IG-1

SUBJECT:     INFORMATION:      Report on "Audit of the Department of
                               Energy's Consolidated Statement of Financial
                               Position as of September 30, 1995"

TO:     The Secretary

BACKGROUND:

The subject report is provided to inform you of the results
of our audit.

DISCUSSION:

The Office of Inspector General was unable to express an
opinion on the reasonableness of the Department's Statement
of Financial Position as of September 30, 1995. Increased
management involvement in identifying unfunded liabilities,
and strengthened controls over property and equipment are
needed in order for the Department to prepare future
financial statements that present fairly, in all material
respects, its financial position. The Office of Chief
Financial Officer agreed with our findings and
recommendations, and has initiated actions to respond to
them. These initiatives will require top management support
throughout the Department to ensure their success.

CHALLENGES TO THE DEPARTMENT:

Although the Office of Inspector General was unable to
express an opinion on the Statement, the preparation and
audit of the Fiscal Year (FY) 1995 Statement of Financial
Position was noteworthy because it was a first-time effort
by the Department. As such, the Department did not have the
benefit of past plans and experience to draw on in
organizing, planning, coordinating, and executing the
preparation and audit of the statement. Additionally, the
Department was faced with the unique challenges posed by its
changing mission environment which had a dramatic impact on
the Department's FY 1995 Statement of Financial Position.
Key challenges posed by the uniqueness of the effort
included organizing and coordinating Departmental resources
to prepare the statement for audit. Especially challenging
was organizing program managersm involvement in the process
to obtain their representations about the accuracy and
completeness of their information in the financial
statement. Another major challenge was coordinating
multiple sources of information to provide the timely
submission of consolidated financial information for audit
purposes. Although progress was made in responding to these
challenges during FY 1995, increased efforts need to be made
during the preparation of the FY 1996 financial statements
to obtain greater management involvement in the process, as
well as to provide timely information for audit.

Recognizing the financial impact of the Department's
changing mission also posed major challenges to the
preparation of the statement. Major international
developments have lessened the need for many of the
Department's national security mission related assets.
Accordingly, the Department initiated a major effort in FY
1995 to identify and revalue facilities and inventories that
were surplus to its mission needs. During FY 1995, the
Department also recognized unfunded environmental
liabilities of almost $200 billion related to the cleanup of
environmental contamination caused by past activities of the
Department and its predecessor agencies. While we found the
estimate to be based on some assumptions that are uncertain,
the estimate is historic because of its magnitude and is
likely to be one of the major unfunded liabilities of the
entire Federal Government. Recognition of these unfunded
environmental liabilities resulted in the Department
reporting that it had a negative net position of
approximately $127 billion as of September 30, 1995.

MANAGEMENT RESPONSE:

The Office of the Chief Financial Officer concurred with the
results of the audit and initiated recommended corrective
actions. In responding to our report, the Office of the
Chief Financial Officer stated that the Departmentms
accounting system was auditable and was not a factor in the
Inspector General's inability to render an opinion on the
Statement of Financial Position. The Office also believed
that the Department had not experienced many of the
financial system problems surfaced during many first-time
financial statement audits of other Federal agencies.

MEETING THE CHALLENGE:

The Department's experience in responding to the challenges
described above provides valuable lessons for the
preparation and audit of the FY 1996 financial statements.
Greater management involvement in the financial statement
process, as well as more timely availability of financial
information for audit, will be needed during FY 1996.


                                   (Signed)

                                 John C. Layton
                                 Inspector General

Attachment

cc:   Deputy Secretary
       Acting Under Secretary
       Chief Financial Officer

                   U.S. DEPARTMENT OF ENERGY
                  OFFICE OF INSPECTOR GENERAL




                           AUDIT OF


                THE U.S. DEPARTMENT OF ENERGY'S


         CONSOLIDATED STATEMENT OF FINANCIAL POSITION


                  (As of September 30, 1995)



Report Number: IG-FS-96-01
Capital Regional Audit Office
Germantown, MD 20874
Date of Issue: February 29, 1996



           AUDIT OF THE U.S. DEPARTMENT OF ENERGY'S
         CONSOLIDATED STATEMENT OF FINANCIAL POSITION
                 (As of September 30, 1995)


                      TABLE OF CONTENTS



SUMMARY.....................................................1

REPORT OF THE OFFICE OF INSPECTOR GENERAL...................3

REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
INTERNAL CONTROL STRUCTURE..................................7

REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
COMPLIANCE WITH LAWS AND REGULATIONS.......................25

ATTACHMENT:
      U.S. DEPARTMENT OF ENERGY CONSOLIDATED STATEMENT
      OF FINANCIAL POSITION AS OF SEPTEMBER 30, 1995.......27


                  U.S. Department of Energy
                 Office of Inspector General
                  Office of Audit Services


                           SUMMARY
                 Report Number: IG-FS-96-01


     In preparation for fulfilling our responsibilities
under the Government Management Reform Act of 1994, we
planned to conduct an audit of the Department of Energy's
FY 1995 Consolidated Statement of Financial Position. As
discussed in the accompanying reports, the Office of
Inspector General (OIG) could not express an opinion on the
reasonableness of the value of assets and liabilities of the
Department because of matters outside the control of the
auditors that restricted the scope of their work. Although
the OIG could not express an opinion, the audit disclosed
reportable conditions in the Department's internal control
structure that adversely affected its ability to manage and
account for its assets and liabilities. Corrective
management actions on these reportable conditions should
help the Department in preparing its Fiscal Year (FY) 1996
Statement of Financial Position.

BACKGROUND

     The Department of Energy is responsible for a wide
variety of missions and programs focusing on national
defense, environmental cleanup, research and development,
and energy resources. To carry out these missions and
programs, the Department manages over $90 billion in assets
through a staff of over 20,000 Federal employees and more
than 120,000 contractor employees. These employees are
located nationwide at over 40 major Departmental field
locations. The Department's financial management system
operates through a decentralized system composed of
integrated contractors, field offices, and Headquarters
offices.

SCOPE AND METHODOLOGY

     The Government Management Reform Act of 1994 requires
Federal agencies, including the Department of Energy, to
issue audited financial statements by March 1, 1997.
Because the Department did not have audited consolidated
financial statements prior to FY 1995, the OIG determined
that it would be more practical to accomplish the audit
objectives of the Act through a multi-phase strategy. The
audit of the FY 1995 Statement of Financial Position was the
first phase of the strategy. It was intended to provide
audited opening balances for the FY 1996 audit of the
Statement of Financial Position and facilitate the audit of
the Statement of Operations for FY 1996.

     The OIG determined the account balances that were
material to the Departmentms Statement of Financial
Position. As a result, the OIG selected 15 major accounts
that represented over 95 percent of the Departmentms assets,
liabilities, and equity accounts. Audit procedures on these
accounts were conducted nationwide at 29 of the 62 entities
reporting financial information. These audit procedures
included tests of internal controls, compliance with
applicable laws and regulations, and substantive tests of
account balances.

     The OIG audit effort was augmented through agreed upon
procedures applied by an independent public accounting firm,
as well as audit procedures applied by internal audit staffs
of six of the Department's integrated managing and operating
contractors. The OIG provided quality assurance procedures
throughout the audit to ensure accuracy, completeness, and
consistency for all work performed. Responsibility for the
reports on the Department's Statement of Financial Position
rests solely with the OIG.

RESULTS IN BRIEF

     The OIG was not able to satisfy itself as to the
reasonableness of the value of assets and liabilities of the
Department as of September 30, 1995. The scope of audit, as
described in the accompanying audit reports, was not
sufficient to express an opinion, and the OIG did not
express an opinion, on the Statement of Financial Position.

     As part of the audit, the OIG identified reportable
internal control weaknesses that could adversely affect the
Department's preparation of complete and accurate financial
statements. The OIG determined that the Department did not
have a system to ensure that program managers were
sufficiently involved in the process to identify all
unfunded liabilities confronting the Department.
Additionally, the OIG determined that the Department did not
have adequate controls over its property and equipment to
ensure proper accountability for these assets. The
Department's automated financial management system was not
capable of producing adjusted consolidated financial
statements, and required an "off-line," personal computer-
based system to record adjusting, eliminating, and
consolidating entries.

     A review of Departmental compliance with laws and
regulations that could have a direct and material impact on
the financial statements did not disclose any additional
areas beyond those disclosed by the Department in its
statements.

   Actions to correct matters discussed in the accompanying
reports will improve the Department's management and
accounting controls over its financial management system.
Such improvements are a prerequisite to the preparation of
financial statements that reasonably represent the
Department's financial position and results of operations.

                 U. S. Department of Energy
                 Office of Inspector General
                  Office of Audit Services


          REPORT OF THE OFFICE OF INSPECTOR GENERAL



The Secretary
U.S. Department of Energy

     In preparation for fulfilling our responsibilities
under the Government Management Reform Act of 1994, we
planned to conduct an audit of the Department of Energy's
FY 1995 Consolidated Statement of Financial Position. This
statement is the responsibility of the Departmentms
management.

     The Department's Consolidated Statement of Financial
Position (Statement) was prepared in conformity with the
hierarchy of accounting principles and standards approved by
the principals of the Federal Accounting Standards Advisory
Board, as described in Note 1 to the Statement. This
hierarchy is a comprehensive basis of accounting other than
generally accepted accounting principles.

     In conducting the examination, several conditions
impacted our ability to audit the Consolidated Statement of Financial
Position of the Department as of September 30, 1995. For the reasons
described below, it was not practicable to extend our auditing procedures
to determine the extent to which the Statement may have been
affected by these conditions.

     The Department's Unfunded Environmental Liabilities of
$196.9 billion did not include an estimate of the costs to
remediate contamination associated with currently active
facilities, as discussed in Note 12 to the Statement. The
costs to remediate active facilities such as the Y-12 Plant,
Pantex, Oak Ridge National Laboratory, Lawrence Livermore
National Laboratory, and Sandia National Laboratories were
not included in the Consolidated Statement of Financial
Position as of September 30, 1995. We, therefore, were not
able to apply our auditing procedures to the unfunded
environmental liabilities applicable to these and other
active facilities.

     Also, we were not able to verify the Department's
Property and Equipment, Net balance of $23.9 billion. Past
practices and current weaknesses in the Department's
accountability system made it impractical to rely on $1.3
billion in property and equipment at the Idaho National
Engineering Laboratory and the Rocky Flats Environmental
Technology Site. Other material weaknesses further impacted
the reliance that could be placed on the Department's system of
accounting for property and equipment. For example, the Department
had not reduced to their net realizable value some surplus, excess, and
obsolete facilities and equipment in the Property and
Equipment, Net balance.

     In addition, we were not able to verify the
reasonableness of the write-down of about $3 billion to the
Property and Equipment, Net balance for facilities related
to the treatment, storage, or disposal of legacy waste.
Such facilities are required to be written down consistent
with Issue No. 90-8 of the Financial Accounting Standards
Board Emerging Issues Task Force. Although the Department
initiated actions to write-down these assets, estimates of
the balances to be recorded were not received until after
yearend closing, and there was not sufficient time to extend
our audit procedures to validate the adjustments.

     Further, we were not able to audit the Pension and
Other Actuarial Liabilities balance because the Department
did not have a systematic process in place to implement
Statement of Financial Accounting Standards No. 87. This
pronouncement specifies accounting requirements applicable
to integrated contractor pension plans. Since a systematic
process was not in place for recording contractor pension
costs and only limited pension liability amounts were
recorded in the Departmentms Consolidated Statement of
Financial Position as of September 30, 1995, we were not
able to audit this unfunded liability.

     We also were not able to audit the Department's
disclosure of over $1.9 billion in potential unfunded
liabilities for activities that must be completed to comply
with environment, safety, and health laws and regulations,
as described in Note 16 to the Statement. Because data
supporting this disclosure was not identified until after
yearend, there was not sufficient time to extend our audit
procedures to validate the disclosure.

     Finally, we could not determine what portion of the
Bonneville Power Administration's assets and liabilities
were attributable to the Department of Energy. Bonneville's
assets and liabilities are owned by multiple Government
agencies and are audited separately under the provisions of
the Chief Financial Officers Act. In performing the audit,
we were not able to obtain adequate assurance that the
balances attributable to Bonneville and included in the
Departmentms Consolidated Statement of Financial Position
were accurate and complete.


                    DISCLAIMER OF OPINION
     Because the scope of our work was not sufficient to
enable us to express an opinion as discussed in the above
paragraphs, we cannot and do not express an opinion on the
U.S. Department of Energy's Consolidated Statement of
Financial Position as of September 30, 1995.


                     MATTERS OF EMPHASIS


     In addition to the matters discussed above, several
other matters of importance should be noted in understanding
the Department's Consolidated Statement of Financial
Position as of September 30, 1995. As described in Note 12
to the Statement, the Department's environmental remediation
liability of $196.9 billion is based on cost estimates that
are highly uncertain. The uncertainty is due to the length
of time over which the remediation work is planned; the lack
of knowledge as to what remedies will be considered
acceptable to regulators and the public; the uncertainty as
to whether Congressional appropriations will be received at
the levels anticipated in the estimate; potential cost
increases caused by future inflation; the uncertainty as to
whether geological repositories will be available to receive
wastes when planned; and the uncertainty inherent in the
estimating process. In addition, the cost estimates assume
that the Department's Environmental Management Program will
increase its productivity by 20 percent over the period
beginning with FY 1996 and ending with FY 2000 and by 1
percent in each year thereafter until the completion of the
environmental management program. It is uncertain whether
the Department will achieve the assumed level of
productivity improvements.

     Also, the Department has significant quantities of
nuclear materials that are excess to national security
needs, as discussed in Note 8 to the Statement.
Departmental officials are presently determining whether
alternative uses exist for these materials. For such
materials determined to have no alternative use, the
Department should recognize a liability for storage and
disposition costs associated with the materials. Since a
final decision on this material has not been made, the
Department was unable to determine the amount of storage and
disposition costs that will ultimately be recognized.

     The Department also is a party to various
administrative proceedings, legal actions, and tort claims
that may ultimately result in settlements or decisions
adverse to the Government, as discussed in Note 15 to the
Statement. The Office of General Counsel, in responding to
our inquires about these matters, was not able to form a
conclusion as to the likely outcome or potential loss
resulting from litigation, claims, and assessments against
the Department. Readers of the Departmentms Consolidated
Statement of Financial Position should, therefore, be aware
that the Statement may be affected by uncertainties
concerning the outcome of claims described in Note 15 which
are not currently susceptible to reasonable estimation.


   MATTERS REQUIRING CONSIDERATION WHICH DO NOT AFFECT THE
                           OPINION


     We planned to perform our audit for the purpose of
forming an opinion on the Department's Consolidated
Statement of Financial Position as of September 30, 1995,
taken as a whole. An Overview of the Reporting Entity and
Supplemental Financial and Management Information are not
required parts of the Department's financial statements, but
are supplementary information specified by Office of
Management and Budget Bulletin No. 94-01, Form and Content
of Agency Financial Statements. As of the completion of
field work, management had not completed preparation of the
Overview of the Reporting Entity and Supplemental Financial
and Management Information. Because we were not provided
this additional information and were not able to express an
opinion on the Consolidated Statement of Financial Position
as of September 30, 1995, we cannot and do not express an
opinion on the Overview of the Reporting Entity and
Supplemental Financial and Management Information to the
Department's Fiscal Year 1995 financial statements.



                 REFERENCE TO OTHER REPORTS


     In accordance with Government Auditing Standards, we
have also issued a report dated December 29, 1995, on our
consideration of the Departmentms internal control structure
and a report dated December 29, 1995, on its compliance with
laws and regulations.




                                   _____(Signed)________
                                       December 29, 1995

                  U.S. Department of Energy
                 Office of Inspector General
                  Office of Audit Services


          REPORT OF THE OFFICE OF INSPECTOR GENERAL
                ON INTERNAL CONTROL STRUCTURE


The Secretary
U.S. Department of Energy

     In preparation for fulfilling our responsibilities
under the Government Management Reform Act of 1994, we
planned to conduct an audit of the Department of Energy's
FY 1995 Consolidated Statement of Financial Position, and
have issued our report thereon dated December 29, 1995.
Because of problems described in that report, we disclaimed
an opinion on the Consolidated Statement of Financial
Position.

     The management of the Department is responsible for
establishing and maintaining an internal control structure.
In fulfilling this responsibility, estimates and judgments
by management are required to assess the expected benefits
and related costs of internal control structure policies and
procedures. The objectives of an internal control structure
are to provide management with reasonable, but not absolute,
assurance that the following objectives are met:

          Transactions are executed in accordance with
       managementms authorization and are properly recorded and
       accounted for to permit the preparation of reliable
       financial reports in accordance with applicable accounting
       policies and to maintain accountability over the assets.

          Funds, property, and other assets are safeguarded
       against loss from unauthorized use or disposition.

          Transactions, including those related to obligations
       and costs, are executed in compliance with laws and
       regulations that could have a direct and material effect on
       the financial statements, and in compliance with any other
       laws and regulations that Office of Management and Budget
       (OMB), Departmental management, or the Inspector General
       have identified as being significant and for which
       compliance can be objectively measured and evaluated.

          Data that support reported performance measures are
       properly recorded and accounted for to permit preparation of
       reliable and complete performance information.

Because of inherent limitations in any internal control
structure, errors or irregularities may nevertheless occur
and not be detected. Also, projection of any evaluation of
the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and
operation of policies and procedures may deteriorate.

     In planning and performing our testwork of the
Department's Statement of Financial Position as of September
30, 1995, we considered its internal control structure in
order to determine our audit procedures for the purpose of
expressing an opinion on that financial statement. Our
consideration included obtaining an understanding of the
significant internal control structure policies and
procedures, determining whether they had been placed in
operation, assessing the level of control risk relevant to
all significant account balances, and performing sufficient
tests to assess whether internal controls are effective and
working as designed. Our evaluation of the internal control
structure was conducted to determine whether it met the
objectives identified in the previous paragraph and not to
provide an opinion on the internal control structure.
Accordingly, we do not express such an opinion.

     We did not evaluate the internal control system related
to the proper accumulation, validation, and presentation of
performance information because the Department had not
developed such a system. Performance information was not
presented with the Department's FY 1995 Statement of
Financial Position.

     In evaluating the internal control structure, we
considered matters reported by the Department in compliance
with the Federal Managers' Financial Integrity Act, our
prior and current audit reports, and other independent
auditor reports on financial matters and internal accounting
control policies and procedures. The Appendix to this
report lists audit reports published by the Office of
Inspector General during FY 1995 that were considered in our
evaluation of the internal control structure.

     We noted certain matters involving the internal control
structure and its operation that we consider to be
reportable conditions under standards established by the
American Institute of Certified Public Accountants and OMB
Bulletin No. 93-06, Audit Requirements for Federal Financial
Statements. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the
design or operation of the internal control structure that,
in our judgment, could adversely affect the Department's
ability to ensure that the objectives of the internal
control structure, as previously defined, are being
achieved. The conditions that we consider to be reportable
conditions are discussed in Exhibits I and II to this
report.

     A reportable condition is classified as a material
weakness when the design or operation of one or more of the
internal control structure elements does not reduce to a
relatively low level the risk that errors or irregularities
in amounts material to the financial statement being
audited, or material to performance measures or the
aggregation of performance data, may occur and not be
detected within a timely period in the normal course of
business. We considered all conditions discussed in Exhibit
I to this report to be material weaknesses. Management
should consider these weaknesses when preparing its yearend
assurance memorandum on management controls.

     Our consideration of the internal control structure
would not necessarily disclose all matters in the internal
control structure that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material
weaknesses as defined above.

     During our review of the FY 1995 Federal Managers'
Financial Integrity Act compliance activities, we also noted
certain matters that may affect the Department's internal
control structure in future periods. The Department
underwent a number of significant changes in its internal
control structure during FY 1995. These changes included a
realignment of Departmental missions and functions,
significant reductions in Federal and contractor staffing
levels, severe budget restrictions imposed by the Congress,
changes in how management and operating contractors are
managed, and the adoption of performance-based contracting
approaches. Because of the magnitude of these changes, we
were not able to fully evaluate whether these changes would
significantly impact the future operations of the
Department. While these matters did not impact our testwork
in our examination of the FY 1995 Statement of Financial
Position, they may significantly impact the Department's
internal control structure in subsequent periods.

     We also noted other matters involving the internal
control structure and its operation that we have reported to
the Department in a separate management report.

     This report is intended for the information of the
management of the U.S. Department of Energy. This
restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                   ______(Signed)______
                                   December 29, 1995


       Liabilities Not Covered by Budgetary Resources


Background: The Department, based on past events and its
continuing mission, is subject to a number of liabilities
that cannot be calculated with certainty. These
liabilities, particularly those related to environmental
management activities and contractor employee pension plans,
involve resource outflows that will not occur until well
into the future and, as such, are not covered by budgetary
resources. Exact amounts for these liabilities cannot be
determined because of uncertainties such as the amount and
timing of Congressional appropriations, the amount and
extent of environmental contamination at uncharacterized
facilities, and pension plan unknowns such as the actual
return on plan investments and participant lifespans. While
exact dollar amounts cannot be determined, Departmental
management is responsible for developing estimates of such
liabilities that are complete and independently verifiable.
Finding 1:       Estimating Liabilities of a Contingent Nature

     OMB Bulletin No. 94-01, Form and Content of Agency
     Financial Statements, and generally accepted accounting
     principles require the Department to identify and
     report all liabilities not covered by budgetary
     resources in its Statement of Financial Position. The
     Department's method of identifying and validating
     estimated liabilities, however, is not completely
     effective. We found the following problems:

             *      The Department relied primarily on the FY 1995 Baseline
                 Environmental Management Report (BEMR) as the basis for
                 recording its unfunded environmental liability and did not
                 estimate or record a liability for the cost of remediating
                 environmental damage associated with currently active
                 facilities;

             *      The BEMR cost estimate omitted certain items and
                 contained other errors that amounted to a net overstatement
                 of about $800 million;

             *      The Department did not require all contractors with
                 defined benefit pension plans to implement Statement of
                 Financial Accounting Standards No. 87 (SFAS 87), Employers'
                 Accounting for Pensions, and is therefore unable to estimate
                 the effect of pension costs on its liabilities; and


             *      The Office of Chief Financial Officer was unaware of an
                 estimate developed by management that purported to represent
                 a $1.9 billion liability related to noncompliance with
                 Environment, Safety and Health (ES&H) laws and regulations.

     These problems occurred because the Department's
     management had not developed and implemented a system
     or systems to ensure that:

             *      Cognizant program elements identify issues that may
                 result in contingent liabilities and, when required, develop
                 estimates to support accruals for such liabilities;

             *      All aspects or components of an issue are addressed or
                 considered when developing such estimates; and

             *      Completed estimates are evaluated for reasonableness
                 and conform to applicable accounting guidance.

     The conditions identified above result in a
     misstatement of the Department's Statement of Financial
     Position with respect to the balance reported for
     liabilities not covered by budgetary resources.
     Although the total dollar effect cannot be determined
     because current estimates of remediation costs for
     active facilities were not prepared and because
     actuarial reports required for SFAS 87 valuations were
     not obtained, we believe that the misstatement is most
     likely material.

     Recommendation: Management officials, in coordination
     with the Office of Chief Financial Officer, should
     develop a system or systems to ensure that amounts
     recorded by the Department for liabilities not covered
     by budgetary resources are complete and that estimates
     prepared to support the accrual are evaluated for
     reasonableness and conform to applicable accounting
     guidance.

     More detailed recommendations regarding unfunded
     environmental liabilities and implementation of SFAS 87
     are included in the detailed findings and recommendations
     that follow. A detailed finding related to the purported
     $1.9 billion liability for noncompliance with ES&H
     related laws and regulations has not been included
     because the Department provided disclosure and is
     working to validate and refine the estimate.

     Management Reaction: Management concurred with the
     finding and recommendation and stated that the Office
     of Chief Financial Officer has and will continue to
     reach out to field and program officials. Such efforts
     will help support preparation of the financial
     statements, including the discovery and reporting of
     unfunded liabilities. As in the past, the Office of
     the Chief Financial Officer will rely on cognizant
     program offices for validation of estimates.

     Auditor Response. Management's proposed actions are
     generally responsive to our recommendation. We agree
     that outreach efforts should form an integral part of
     our recommended approach. Such efforts must also
     include increased coordination and interaction between
     the Office of Chief Financial Officer and field and
     program management officials. To be successful,
     outreach efforts must inform program officials of the
     character and nature of items that may require
     financial statement recognition. Program officials
     must also understand the extent and type of evidence
     necessary to support the financial statement disclosure
     or accrual of contingent liabilities.


Unfunded Environmental Liabilities

Background: The Department relied on the FY 1995 BEMR as
the primary basis for recording its unfunded environmental
liabilities. This study, required by the National Defense
Authorization Act of 1994, estimated that the cost of
remediating environmental damage related to the
Environmental Management Program would range from $200
billion to $350 billion, with a mid-range estimate of $230
billion. This estimate included $24 billion for costs
related to the treatment, storage, and disposal of future
waste streams generated by ongoing operations.
The Chief Financial Officer appropriately concluded that
costs related to future waste streams generated by ongoing
operations did not presently constitute a liability. Based
on that conclusion, the Department recorded unfunded
environmental liabilities of $206 billion, the mid-range
BEMR cost estimate ($230 billion) less the portion of the
estimate attributable to ongoing operations ($24 billion).
Funding received during FY 1995 and other adjustments
further reduced total unfunded environmental liabilities to
$196.9 billion as of September 30, 1995. The amount
recorded does not, however, include remediation costs
associated with currently active facilities.

Finding 2: Determining Remediation Costs for Currently
Active Facilities

     Generally accepted accounting principles require that a
     liability be recorded, with a corresponding charge to
     expense, for all discrete environmental remediation
     projects associated with past activities that can be
     identified and for which costs can be estimated. The
     Department did not include an estimate of environmental
     remediation costs associated with currently active
     facilities in its unfunded environmental liabilities
     balance as of September 30, 1995. Examples of costs
     excluded are those required to remediate most
     contaminated facilities at the Y-12 Plant located in
     Oak Ridge, Tennessee; the Pantex Plant located near
     Amarillo, Texas; and those located at some of the
     Departmentms multi-program research laboratories.
     Estimates of remediation costs for these facilities
     were not developed during preparation of the FY 1995
     BEMR because the Department considered such costs to be
     outside the scope of its Environmental Management
     Program. The exclusion of active facilities'
     remediation costs understates the Department's unfunded
     environmental liabilities. It is not possible to
     estimate the total impact of these omissions because
     current cost estimates were not prepared; however, the
     omission most likely resulted in a material
     misstatement of the Department's unfunded environmental
     liabilities.

     Recommendation: The Department should develop an
     estimate of the remediation costs for active facilities
     using a methodology consistent with that of the BEMR
     and should adjust its unfunded environmental
     liabilities accordingly.

     Management Reaction: Management generally concurred
     with the finding and agreed that remediation costs
     associated with active facilities are probable and
     reasonably estimable. However, management believes
     that the cost to complete studies normally used to
     estimate eventual remediation costs (remedial
     investigations and feasibility studies) consistent with
     the BEMR methodology would outweigh any benefit
     derived. Therefore, management is evaluating other
     methods of estimating remediation costs for active
     facilities to meet accounting requirements.

     Auditor Comments: Management's planned actions are
     generally responsive to our recommendation. Should
     management choose an estimating methodology other than
     that used to develop the BEMR estimate, such
     methodology must produce an estimate that is complete,
     reasonably consistent, and readily verifiable.

Finding 3:       Preparation of the BEMR Cost Estimate

     As a component of its overall internal control
     structure, the Department is responsible for
     establishing a system of controls to provide reasonable
     assurance that estimates supporting accruals of
     unfunded environmental liabilities are complete and
     readily verifiable. The Department's control system
     was not totally effective in preventing or detecting
     errors and omissions in the data used to develop the
     BEMR. Our review disclosed examples of the following
     problems:

             *      Supporting documentation for certain project cost
                 estimates could not be produced;

             *      Project cost estimates could not be traced to support;

             *      Certain project costs were omitted from estimates; and

             *      Estimates contained mathematical and modeling errors.

     Such problems occurred because the BEMR estimate was
     not initially intended to support a financial statement
     accrual and because the estimate was produced in an
     extremely short time frame. The monetary impact of
     errors ranged from $221 million to $3.4 billion, with a net
     overstatement of about $800 million.

     Recommendation: The Department should establish
     internal controls to provide reasonable assurance that
     estimates used to support accruals of environmental
     liabilities are reasonable and that significant errors
     or omissions in such estimates are prevented or
     detected.

     Management Reaction: Management generally concurred
     with our finding and recommendation and has completed
     or initiated corrective actions. The Office of
     Environmental Management commented, however, that the
     items identified did not materially affect the BEMR
     cost estimate.

     Auditor Comments: Managementms proposed actions are
     generally responsive to our recommendation.
Contractor Pension Plans

Background: The majority of contractors performing work for
the Department sponsor defined benefit pension plans for
their employees. Although pension costs for these plans are
related to private sector employees, the Department approves
and is ultimately liable for the payment of such costs.
Because Federal accounting standards are silent on costs
related to private sector employees, the Department should
account for liabilities associated with such costs based on
requirements established for private sector pension costs.

The Department's current policy is to authorize
contributions to these plans and to recognize pension costs
only to the extent required by the Employee Retirement
Income Security Act (PL 93-406). Such practice is contrary
to SFAS 87, which recognizes that pension costs are a
component of compensation expense and requires that they be
recognized in the period during which employees render
services.

Finding 4:   Implementation of SFAS 87, Employers' Accounting
             for Pensions

     OMB Bulletin No. 94-01 establishes a hierarchy of
     accounting standards for Federal agencies. Because
     Federal accounting standards are silent on accounting
     for contractor pension plans, the Department is
     required to follow generally accepted accounting
     principles prescribed for private sector entities. The
     Department did not, however, require that all
     contractors with defined benefit pension plans adopt
     SFAS 87. The accounting standard was not adopted
     because the Department did not make a firm decision or
     issue guidance to its integrated contractors requiring
     implementation during FY 1995. The dollar value effect
     of not implementing SFAS 87 could not be determined
     because the Department did not obtain required
     actuarial valuation reports. Not implementing SFAS 87
     constitutes a material departure from generally
     accepted accounting principles.

     Recommendation: The Department should adopt SFAS 87
     during FY 1996. In so doing, the Department should
     develop specific guidance to field activities
     illustrating how SFAS 87 pension costs and position are
     to be calculated, recorded, and disclosed. Actuarial
     valuations obtained for FY 1996 should also provide the
     basis for adjusting the Financial Statements to reflect
     a FY 1995 implementation date.

     Management Reaction: Management concurred with the
     finding and recommendation and will require contractor
     pension liabilities to be accrued in accordance with
     SFAS 87 in FY 1996.
     Auditor Comments: Management's planned actions are
     responsive to our recommendation.


                 Property, Plant and Equipment


Background: The Department is charged with the
responsibility of protecting and maintaining accountability
over about $23.9 billion of Government property. Management
of the vast majority of such property is delegated to the
contractors that operate the Department's facilities across
the country. These contractors are responsible for
implementing financial and physical property accounting
controls that are consistent with guidance promulgated by
the Department and other cognizant Government bodies. As
detailed in the following findings, the Department needs to
strengthen its internal control system for property, plant
and equipment in a number of areas.

Finding 5:   Property Accountability Systems for Completed
             Property, Plant and Equipment (CPP&E)

     Generally accepted accounting principles require the
     maintenance of property accounting records sufficient
     to support management's assertion that account balances
     are accurate. However, the Department cannot support
     the assertion that CPP&E account balances for the Rocky
     Flats Environmental Technology Site and the Idaho
     National Engineering Laboratory (INEL) are accurate.
     During FY 1995, one contractor replaced five separate
     contractors at INEL, while the management and operating
     contractor at Rocky Flats was replaced by a single
     integrating contractor. These successor contractors
     did not accept responsibility for CPP&E balances at
     contract inception because of past practices and
     current weaknesses in the Department's property
     accountability system at their respective sites.
     Therefore, the Department has no assurance that the
     combined net CPP&E balance of about $1.3 billion for
     these sites is reliable and free of material
     misstatement.

     The Department has initiated action to remedy these
     problems by requiring that successor contractors
     complete wall-to-wall inventories at each of the sites.

     Recommendation: The Department should monitor the
     contractorsm actions to ensure that the inventories are
     completed in a timely manner and that all required
     account adjustments are accomplished prior to the end
     of FY 1996.

     Management Reaction: Management concurred with our
     finding and recommendation and stated that the required
     corrective action would be taken.
     Auditor Comments: Management's proposed actions are
     responsive to our recommendation.


Finding 6:       Application of Accounting Policies, Principles,
                 and Procedures Related to Property, Plant and Equipment

     Departmental accounting directives specify property,
     plant and equipment accounting policies, principles,
     and procedures that are applicable to all Departmental
     elements. These directives and other policy guidance
     delineate the appropriate accounting treatment for a
     broad spectrum of events and transactions. Despite
     this detailed guidance, the Departmentms internal
     control system to prevent or detect the inconsistent or
     misapplication of accounting policies, principles, and
     procedures was not entirely effective. The following
     general problem areas illustrate the deficiencies
     observed and summarize separate audit findings issued
     to various Departmental field activities:

             *      Some surplus, excess, or inactive facilities and
                 equipment remained on the accounting records at cost rather
                 than being reduced to their net realizable value;

             *      Certain general and administrative costs were
                 inappropriately included in the cost of capitalized
                 purchased assets;

             *      Standard service lives specified by accounting guidance
                 were not always used for capitalized assets;

             *      Subsidiary ledgers were not reconciled to control
                 accounts; and

             *      Physical property accounting systems contained major
                 omissions and errors as to the status, location, and type of
                 property.

     These problems occurred because contractors
     misinterpreted certain requirements and Heads of Field
     Elements did not ensure that contractors consistently
     applied applicable accounting criteria. Because of
     these problems, the Department cannot provide adequate
     assurance that its CPP&E account balance is correct and
     not materially misstated.

     Recommendation: The Department should strengthen its
     internal control system over property, plant and
     equipment accounting by reasserting that Heads of Field
     Elements are responsible for ensuring that contractors
     implement the provisions of Departmental accounting instructions.
     No further recommendations are made with regard to separately
     issued audit findings because those findings will be
     addressed in management reports issued at the field
     element level.
     Management Reaction: Management generally concurred
     with our finding and recommendation and indicated that
     the required corrective action would be taken.

     Auditor Comments: Management's proposed action is
     responsive to our recommendation.


Finding 7:   Transfer of Costs Accumulated in the
             Construction Work in Progress (CWIP) Account

     Departmental accounting guidance requires that the cost
     of constructed assets be removed from the CWIP account
     and transferred to other accounts when construction and
     costing are complete, when beneficial occupancy occurs,
     or when the project is canceled or abandoned. However,
     the Department's internal control system for ensuring
     that costs accumulated in its CWIP account are closed
     in a timely manner is ineffective. We observed
     problems related to the untimely closure of projects at
     each of the reporting entities covered by our audit of
     this account. The Department's contractors retained
     projects in the CWIP account long after beneficial
     occupancy occurred or after the project had been
     abandoned. We specifically identified about $525
     million of costs that should have been closed to CPP&E
     accounts or written off. These costs were not
     transferred as required because contractors did not
     remove costs for beneficially occupied projects until
     all subprojects were fully costed and the Department
     did not provide timely authorization for the write-off
     of canceled projects. Retention of these costs in the
     CWIP account resulted in the misstatement of the
     yearend Accumulated Depreciation and CPP&E account
     balances.

     The Department completed an initiative during FY 1995
     that succeeded in reducing the CWIP account balance by
     about $2.8 billion. That initiative also identified a
     number of projects, in addition to those identified by
     our audit, with accumulated costs of $439 million as
     candidates for closure. We specifically considered the
     initiative when developing our recommendation.

     Recommendation:. The Department should strengthen or
     improve its internal control system and augment or
     expand its management initiative as necessary to ensure
     that project costs accumulated in the CWIP account are
     removed in a timely manner.

     Management Reaction: Management generally concurred
     with our finding and recommendation. As resources
     permit, the Office of Chief Financial Officer will
     require field activities to monitor the CWIP account on
     a monthly basis. The Office will also monitor related
     accounting information on a monthly basis and will use
     a risk-based approach to ensure that completed or
     abandoned projects are removed from the CWIP account in
     a timely manner.

     Auditor Comments: Management's proposed actions are
     responsive to our recommendation.

                    Financial Management System

Background: The Department's financial management system
operates through a decentralized system composed of
integrated contractors, field offices, and Headquarters
offices. This system was developed and implemented a number
of years before the Department became subject to the
requirement to produce consolidated financial statements.
The Department is now involved in a multi-phased effort to
develop and implement a major enhancement to its financial
management system. This enhancement, known as the
Management Analysis Reporting System, was designed to update
the system and to increase its usefulness. As indicated by
the following finding, the Department's financial management
system, in its present state of development, does not
provide sufficient functionality to permit the entry of
financial statement-level adjusting, eliminating and
consolidating entries necessary to produce adjusted
consolidated financial statements.

Finding 8:     Production of Adjusted Consolidated Financial
               Statements

     Sound financial management practices require that
     financial management systems be capable of recording
     financial statement-level adjusting, eliminating and
     consolidating entries necessary to produce yearend
     financial statements. However, the Department's
     financial management system is not directly capable of
     making such entries. To compensate for this problem,
     Departmental officials rely on an "off-line" system,
     maintained on a personal computer, to record
     adjustments, eliminations, and consolidating entries
     and to produce the adjusted consolidated financial
     statements. Adjusting entries accumulated in the "off-
     line" system are not posted until the subsequent fiscal
     year, and information attributable to the power
     marketing administrations (PMA) is not recorded in the
     financial management system. This situation occurs
     because the Department's financial management system
     does not include features that permit financial
     statement-level adjustments. As a result, the
     Department's financial management system does not
     accurately reflect its consolidated position and
     results of operations.

     Recommendation: The Department should modify its
     financial management system to:

       *       Eliminate the need for ancillary loff-linen information
             systems;
  *     Incorporate appropriate management and systems level
      controls; and

  *     Permit the entry of statement-level adjusting,
      eliminating and consolidating entries necessary to
      accurately reflect the Departmentms consolidated position
      and results of operations.

Management Response: Management generally concurred
with our finding and recommendation. The Office of
Chief Financial Officer recognized the need to improve
controls over off-line adjustments and will endeavor to
limit the use of such adjustments when preparing the
Departmentms FY 1996 financial statements. Adequate
review and approval processes are to be implemented for
Headquarters level adjustments and options for
recording such entries directly into the financial
management system will be examined. In addition,
efforts to conform PMA financial data to U.S.
Government Standard General Ledger format will continue
with the ultimate goal of directly including such data
in the Department's financial management system.

Auditor Comments: Management's planned actions are
generally responsive to our recommendations.
